HHS/OIG-Audit--"Audit of Medicare Termination Costs Claimed by Blue
Shield of California for the period December 1, 1996 through November 30, 1997,
(A-09-99-00083)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Termination Costs Claimed by Blue Shield of California
for the Period December 1, 1996 through November 30, 1997," (A-09-99-00083)
December 14, 1999
Complete Text of Report is available in PDF format
(146 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Effective December 1, 1996, California Physicians' Service, dba Blue Shield
of California (BSC), voluntarily withdrew from the Medicare program as a carrier.
During the period December 1, 1996 through November 30, 1997 BSC claimed termination
costs totaling $2,813,246. The termination costs charged to Medicare were overstated
by $574,615. The overstatement consisted of improperly allocated severance costs,
unallowable building reconfiguration costs, unapproved professional fees, and
unallowable outplacement services costs. We recommended that BSC reduce its
Medicare claim for the $574,615 in overstated costs.
We also set aside building reconfiguration costs of $85,148 for the Health
Care Financing Administration's determination because BSC was unable to provide
the needed documentation to support that these costs were Medicare related.